          Office of Inspector General




March 10, 2006

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA OPERATIONS

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT:       Audit Report – Surface Networks – Intermodal Rail and Highway
               Transportation Between the Great Lakes and Western Areas
               (Report Number NL-AR-06-002)

This report is one in a series of reports that presents results from our nationwide audit of
bulk mail center (BMC) surface transportation routes (Project Number 04YG013NL011).
Our objectives were to evaluate the effectiveness of BMC routes and identify
opportunities for cost savings. The audit responded to a request from the vice
president, Network Operations Management. This report focuses on rail and highway
routes between the Great Lakes and Western Areas.

The U.S. Postal Service currently uses rail and highway transportation to move mail
from the Chicago BMC to the Minneapolis and Seattle BMCs. The Postal Service pays
for rail transportation only when it is actually used, but pays for contracted and
scheduled highway transportation whether it is used or not. The principal highway
contract route (HCR) from Chicago to Seattle generally moves across country with
75 percent of its cargo space available and has the capacity to assume additional
volume. Our analysis concluded the Postal Service could save approximately
$1.9 million over the term of affected highway contracts by modifying those highway
contracts and transporting some mail currently moved by rail in excess space on
scheduled highway transportation. The savings represent potential funds that could be
put to better use and will be reported as such in our Semiannual Report to Congress.
We recommended that the Western and Great Lakes Areas make the appropriate
highway contract modifications and reduce rail traffic accordingly.

Management agreed with our recommendations. They stated that the necessary
highway contract modifications and resulting reduction of rail traffic have already been
made or would be made by June 30, 2006. Management’s comments and our
evaluation of these comments are included in this report.
The U.S. Postal Service Office of Inspector General (OIG) considers recommendations
1 and 2 significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation that the recommendations can be
closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
director, Transportation, or me at (703) 248-2300.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI




Colleen McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Paul E. Vogel
    Anthony M. Pajunas
    Steven R. Phelps
Surface Networks – Intermodal Rail and Highway                                 NL-AR-06-002
 Transportation Between the Great Lakes and Western Areas


                                       INTRODUCTION
 Background                   This report is one in a series of reports from our nationwide
                              audit of bulk mail center (BMC) surface transportation
                              routes. It focuses on rail and highway transportation from
                              the Great Lakes Area to the Western Area. The vice
                              president, Network Operations Management, requested the
                              BMC transportation route audit. During work in the Western
                              Area, area transportation officials requested our assistance
                              in evaluating rail transport between Minneapolis and Seattle
                              and in identifying opportunities to save money. This report
                              responds to that specific request.

                              Bulk mail includes magazines, advertising, and
                              merchandise shipped by major mailers like publishers,
                              catalog companies, or online retail companies. A system of
                              21 BMCs and other facilities nationwide process it. Bulk
                              mail is less time-sensitive than other mail such as
                              First-Class or expedited mail. As a result, transportation
                              managers move bulk mail over long distances on surface
                              routes, rather than on faster, but more costly air networks.
                              The U.S. Postal Service spends more than $500 million
                              annually on bulk mail surface transportation routes.
                              Individual Postal Service areas control most of those routes.




      Train with highway
   trailers “piggy-backed”
    onto “intermodal” rail
   flat-cars, departing the
     Burlington Northern
     Santa Fe Rail Yard,
   Minneapolis, Minnesota,
      February 15, 2006.




                              The Postal Service pays for rail transportation only when it
                              is actually used but pays for scheduled highway contract
                              routes (HCRs) whether they are used or not. In previous
                              surface transportation audit reports (see Appendix A), we



                                                  1
Surface Networks – Intermodal Rail and Highway                                   NL-AR-06-002
 Transportation Between the Great Lakes and Western Areas


                                identified opportunities to save money by reducing the
                                amount of mail moved by rail and using excess capacity on
                                scheduled HCRs.

 Objectives, Scope,             The objective of this report is to identify potential savings
 and Methodology                the Postal Service could achieve by reducing the amount of
                                mail moved by rail from Minneapolis to Seattle and
                                transporting that mail in excess space on already contracted
                                and scheduled highway transportation.




    Containers being lifted
     onto a flat-car for rail
        transportation.

     Burlington Northern
      Santa Fe Rail Yard
   Minneapolis, Minnesota,
      February 15, 2006.




                                During our work, we interviewed officials at headquarters
                                and in the Great Lakes and Western Areas; reviewed
                                relevant Postal Service policies and procedures; visited the
                                Minneapolis and Seattle BMCs; interviewed transportation
                                managers and employees; and observed and photographed
                                operations. We also analyzed rail transportation to the
                                Western Area, including 359 rail trips from Minneapolis to
                                Seattle and considered alternate highway transportation.
                                We coordinated with Great Lakes Area, Western Area, and
                                headquarters officials; consulted with financial analysts,
                                computer analysts, and other subject matter experts;
                                evaluated mail volume and the type of mail carried; and
                                considered “on-time” service standards.

                                During our audit, we examined computer data in
                                management’s Transportation Contract Support System,
                                Transportation Information Management Evaluation System,
                                and Rail Management Information System. We did not


                                                  2
Surface Networks – Intermodal Rail and Highway                                 NL-AR-06-002
 Transportation Between the Great Lakes and Western Areas


                              audit or comprehensively validate the data; however, we
                              noted several control weaknesses that constrained our
                              work. For example, the Transportation Information
                              Management Evaluation System had missing records and
                              inaccurate trailer load volumes.

                              We conducted work associated with this report from
                              October 2005 through March 2006, in accordance with
                              generally accepted government auditing standards and
                              included tests of internal controls we considered necessary
                              under the circumstances.

 Prior Audit Coverage         Since September 2002, the U.S. Postal Service Office of
                              Inspector General has worked with the Postal Service to
                              reduce surface transportation and related costs. As a
                              result, we have issued 20 audit reports that identified
                              potential savings exceeding $81.5 million over the life of
                              eliminated or reduced transportation contracts. For more
                              detailed information, see Appendix A.




                                                  3
Surface Networks – Intermodal Rail and Highway                                                NL-AR-06-002
 Transportation Between the Great Lakes and Western Areas


                                         AUDIT RESULTS

 Rail and Highway             As illustrated by the map below, the Postal Service currently
 Transportation               uses rail and highway to move mail from the Chicago BMC
 Consolidation                to the Minneapolis and Seattle BMCs. However, HCR
                                         Existing Rail – Minneapolis to Seattle     Existing Highway Route
                                                                                     No 60222, Chicago to
                                  SEATTLE                                                 Minneapolis
                                                                     MINNEAPOLIS




      Currently existing                Existing Highway                           CHICAGO
    Postal Service surface               Route No 980Y4
    transportation routes               Chicago to Seattle




                                        Rail Transportation
                                        Highway Transportation



                              980Y4 generally moves from Chicago to Seattle with
                              75 percent of its cargo space available and has the capacity
                              to assume additional mail volume. Our analysis concluded
                              that the Postal Service could save about $1.9 million dollars
                              over the term of existing highway contracts by rerouting
                              HCR 980Y4 with a service stop in Minneapolis, then
                              eliminating 286 rail trips per year from Minneapolis to
                              Seattle, and eliminating twelve scheduled HCR 60222 trips
                              per week from Chicago to Minneapolis. The savings could
                              be achieved as illustrated in the chart below. For additional
                              details see Appendix B.

                                          PROPOSED TRIP ELIMINATIONS AND MODIFICATIONS

                                             SERVICE REDUCTIONS                     ESTIMATED SAVINGS

                                Minneapolis to Seattle rail service.                     $1,241,097

                                Chicago to Minneapolis highway service.                  $ 701,744

                                Total                                                    $1,942,841

                              Although some rail trips and HCR 60222 trips would still be
                              necessary, the operational changes could save money
                              because with 75 percent capacity available, HCR 980Y4
                              has the space needed to absorb mail volume from both.


                                                      4
Surface Networks – Intermodal Rail and Highway                                  NL-AR-06-002
 Transportation Between the Great Lakes and Western Areas



 Cooperative Effort           As a result of our continuing efforts to partner with and bring
                              value to the Postal Service, we had ongoing communication
                              with Western and Great Lakes Area officials throughout our
                              audit. As a result of our cooperative effort, the areas agreed
                              with our proposal and cost savings.

 Recommendation               We recommend the vice president, Western Area
                              Operations:

                                  1. Verify the rerouting of highway contract route 980Y4
                                     from Chicago to Seattle to add a service stop at the
                                     Minneapolis Bulk Mail Center, and reduce rail traffic
                                     accordingly.

 Management’s                 Western Area management agreed with our finding and
 Comments                     recommendation. The Western Area stated they had
                              already implemented all recommended changes.
                              Management’s comments, in their entirety, are included in
                              Appendix C of this report.

 Recommendation               We recommend the vice president, Great Lakes Area
                              Operations:

                                  2. Verify the actual modification of Highway Contract
                                     Route 60222 to reduce scheduled trips as
                                     appropriate.

 Management’s                 Great Lakes Area management agreed with our finding and
 Comments                     recommendation. They stated they will implement the
                              recommended highway contract change at the renewal of
                              the highway contract on June 30, 2006.
                              y
 Evaluation of                Management’s comments are responsive to our findings
 Management’s                 and recommendations. We commend the quick actions
 Comments                     taken by the Western and Great Lakes Areas. We consider
                              management’s actions, taken or planned, sufficient to
                              address the findings and recommendations we made in our
                              report.




                                                  5
Surface Networks – Intermodal Rail and Highway                                                                           NL-AR-06-002
 Transportation Between the Western and Great Lakes Area



                                                   APPENDIX A. PRIOR AUDIT COVERAGE
                                                                                           Number of
                                                                                              Trips
                                                                                          Identified for                  Trips with Trips with
                                                                               Date Final Elimination      Potential        which      which       Trips
                                                                                Report          or          Savings      Management Management Identified by
                         Report Name                           Report Number    Issued Modification        Identified      Agreed    Disagreed  Management

   Highway Network Scheduling - Pacific Area                   TD-AR-02-003     9/24/2002      158          $4,500,417        76           34          48
   Highway Network Scheduling - Northeast Area                 TD-AR-03-002    11/25/2002       18             776,992        10            8           0
   Highway Network Scheduling - Capital Metro Area             TD-AR-03-007     3/28/2003       34           1,144,218        20           14           0
   Highway Network Scheduling - New York Metro Area            TD-AR-03-008     3/31/2003       32             470,123        12           20           0
   Highway Network Scheduling - Southwest Area                 TD-AR-03-010     7/11/2003      249           5,989,082       148          101           0
   Highway Network Scheduling - Western Area                   TD-AR-03-013     9/23/2003       70           2,721,530        30           40           0
   Highway Network Scheduling - Southeast Area                 TD-AR-03-014     9/26/2003      101          11,352,881        23           24          54
   Highway Network Scheduling - Eastern Area                   TD-AR-03-015     9/30/2003      181          10,577,367       128           53           0
   Highway Network Scheduling - Great Lakes Area               NL-AR-04-003     3/29/2004       72           5,352,877        48           22           2
   BMC Transportation Routes - Great Lakes Area                NL-AR-04-004     9/29/2004       96           7,660,533        49            7          40
   BMC Transportation Routes - Eastern Area                    NL-AR-05-003     3/17/2005       35           4,791,570        29            6           0
   Intermodal Rail and Highway Transportation - Pacific Area   NL-AR-05-004     3/18/2005        0           1,046,240         0            0           0
   BMC Transportation Routes - Southeast Area                  NL-AR-05-005     3/18/2005       52           6,563,582        52            0           0
   BMC Transportation Routes - New York Metro                  NL-AR-05-007     6/9/2005        16           1,499,371        16            0           0
   BMC Transportation Routes - Southwest Area                  NL-AR-05-008      8/3/2005       79           7,175,912        76            0           3
   BMC Transportation Routes - Capital Metro Area              NL-AR-05-009      9/2/2005       10             803,060        10            0           0
   Intermodal Rail and Highway Transportation Between the
    Pacific and Southeast Areas                                NL-AR-05-011    9/19/2005         0           1,261,308         0            0           0
   BMC Transportation Routes – Pacific Area                    NL-AR-05-012    9/21/2005        22           3,123,562        10            2          10
   BMC Transportation Routes – Northeast Area                  NL-AR-05-013    9/26/2005        41           2,491,133        15            0          26
   BMC Transportation Routes – Western Area                    NL-AR-06-001    2/14/2006        77           2,235,812        50            2          25

                            Totals                                  20                       1,343         $81,537,570       802          333         208



BMC − Bulk Mail Center


                                                                               6
Surface Networks – Intermodal Rail and Highway                                                                                     NL-AR-06-002
 Transportation Between the Western and Great Lakes Area




                                                                  APPENDIX B

        RAIL AND HIGHWAY CONTRACT TRIP SAVINGS IDENTIFIED DURING AUDIT WORK
                    WITH WHICH POSTAL SERVICE MANAGERS AGREED

                                          Minneapolis to Seattle Rail Transportation


                        Cost of 1 rail move from Minneapolis to Seattle                                  $1,578

                        Number of trip reductions per year                                               X 286

                        Estimated yearly savings                                                      $451,308

                        Divide by number of months per year                                                / 12

                        Estimated savings per month                                                    $37,609

                        Remaining contract term for HCR 980Y4 in months                                    x 33

                        Estimated contract term savings                                             $1,241,097


       We calculated rail savings by comparing the annual rail shipments with the available capacity on existing HCRs. During this analysis, we examined
       records from various Postal Service management systems, including:

           •   Rail records for the 52-week period from October 1, 2004, through September 30, 2005.

           •   Trailer load volume for October 1, 2004, to September 30, 2005 (FY 2005).

           •   Current highway contracts for trips from Seattle to Minneapolis in the Western Area and Chicago to Minneapolis in the Great Lakes Area.




                                                                           7
Surface Networks – Intermodal Rail and Highway                                                                      NL-AR-06-002
 Transportation Between the Western and Great Lakes Area




                                                           APPENDIX B

        RAIL AND HIGHWAY CONTRACT TRIP SAVINGS IDENTIFIED DURING AUDIT WORK
                    WITH WHICH POSTAL SERVICE MANAGERS AGREED

HIGHWAY SAVINGS


  Effective                 Highway
   Date of    End Date      Contract                                                         Annual     Estimated                  Estimated
    Last         of          Route       Trip           Specific            Origin to        Budget      Contract    Indemnity       Cost
  Change      Contract      Number      Number      Recommendation        Destination         Cost        Cost          Fees        Savings
                                                                           Chicago 2C
                                                                        Metro Facility, IL
 06/11/2005   06/30/2006     60222         903       Trip Elimination                        $174,612    $349,224           $0      $349,224
                                                                         to Minneapolis
                                                                            BMC, MN
                                                                         Minneapolis
                                                                         BMC, MN to
 06/11/2005   06/30/2006     60222         904       Trip Elimination                        $176,260    $352,520           $0      $352,520
                                                                         Chicago 2C
                                                                        Metro Facility, IL

                                                                                             $350,872    $701,744           $0      $701,744




                                                                   8
Surface Networks – Intermodal Rail and Highway             NL-AR-06-002
 Transportation Between the Western and Great Lakes Area


                  APPENDIX C. MANAGEMENT’S COMMENTS




                                                  9
Surface Networks – Intermodal Rail and Highway             NL-AR-06-002
 Transportation Between the Western and Great Lakes Area




                                                 10
